     II                              I'




                  Congression!al Testimony
                          U.S. House of Representatives
                          Committee on Appropriations
                        , Subcommittee Or] Labor,
                   Health and Human Services, Education
                           and Relat€:d Agencies




 ,.11
\.




                  Statement f()r the Rec'ord                          I   .




            Four of the Most S.ignificant Management Challenges 

              . Facing the Social SHcurity Administration 


                            James G. Huse, Jr.
          Inspector
           .
          ,...-
                    General of the Social Security Administration .
                      ~




                               February 25, 2004
     Good moming, Chairman Regula, Ranking Member Obey, and'members of the Subcommittee.
     It is a pleasure to be here today to discuss the fLscal year (FY) 2005 President's Budget request
     for the Social Security Administration's (SSA) Office of the Inspector General (OIG). This
     budget request for $92 million reflects a mode~:t increase above our current year's funding level
     and will enable us to maintain our FY 2004 staffing levels and fund associated support costs.
                  I


      No pr;~am touches more lives than Social Se.)urity. As stewards ofthis sacred trust, we
      continuously strive to keep S SA and its pro grams efficient and effective, and free from fraud,
      waste, and abuse~ A significant step towards helping us improve our efforts was the recent
    " passage ofH.R.74~, the Social Security Protection Act of2003. This milestone bill, the work of
      three Congresses, provides new safeguards for Social Security and Supplemental Security
      Income (SS1) beneficiaries who have representative payees, and will enhance other program
      protections.

     This new legislation will provide sigriificant n{~w authority to our office to protect the Social
     Security number (SSN), SSA's employees, and the Social Security Trust Funds. This legislation
     is a significant expansion of OIG' s r"esponsibility, and we plan to implement it immediately. I
     congratulate Congress, and especially Chairman Shaw and Ranking Member Matsui of the Ways
     and Means Committee's Subcommittee on Social Security, for this comprehensive, diligent.          "
     effort.

     That said: however~ whenever Congress enact:; a bill with teeth in it, the Committee on
     Appropriations receives the bill for the dental work. We are determining the budget implications
(    on our operations to enforce these new provisions. Today, I would like to discuss how.the
     proposed funding level will support our ongobg work in four of the top management challenges
     facing Social Security and how the new mand3..tes and opportunities of the Social Security
     Protection Act will impact our operations in each of these challenge areas.

                            SSN Integrity and Protection - Homeland Security

     The importance placed onSSNs and the magritude of SSA' s enumeration function provides an
     appealing target to fraudulently acquire SSNs and use them for illegal pmposes. In FY 2003,
     SSA issued over 17 million original and repla~ement $SN cards, and received approximately
     $533 billion in employment taxes related to earnings under the SSNs it has issued.
           "




                      .   " "

     Protecting the SSN and properly" posting the wages reported under each SSN is critical to .
                                                                        "             "

     ensuring eligible people receive their benefits correctly. Unfortunately, the SSN is often misused.
     Criminals can improperly obtain and misuse ~:SNs, causing innocent individuals years of .
     difficulty. SSN misuse also adds cost to financial and commercial institutions, which is
     ultimately passed on to consumers. Worse yet, SSN misuse can impact our homeland security
     by disguising a dangerous felon or a would-be terrorist as a law-abiding citizen. This de facto·
     national identifier may also provide a crimlnal the identifi<1ation and seeming legiti:r:nacy he or
     she needs to go about dishonest business, perhaps putting individuals' lives in jeopardy.

     SSA needs to strike a balance between servin,~ the public and maintaining SSN integrity. Th~
     Agency has a duty to the American public to :>afeguard the integrity of the enumeration process.
     Given the LJ.agnitude of SSN misuse, we believe SSA must continue to employ and enhance
    effective front-end controls in issuing SSNs. Likewise, additional techniques, such as data'
    mining, biometrics, and updated systems processes are critical in the fight against SSN misuse.
    We have made several recommendations and he Agency has taken steps to improve procedures
    Jor ensuring SSN integrity and to strengthen it:; link in the homeland security chain. We
    contimie to ,conduct audits and reviews of the ~)SN enumeration business process and participat~
    in a variety of investigative task forces focused on homeland security.

    Let me illustrate this !ssue by highlighting sevl~ral receR~ successes.

     Our investigators, along with other agencies, hoke up a $4.3 rtrillion criminal enterprise that
    -provided Social Security cards and other credmtials"to Undocumented alieIls. We found that an
     SSA employee processed and approved applications of over 1,700 knowingly fraudulent Social
     Security cards for approximately $1,000 each. illegally issued SSNs put the financial integrity of
     the Social Security system-at risk, inhibit the country1s efforts to thwart terrorism, permit the .
     potential defrauding of other FederaJ. and Statf: programs, and compromise the safety of
     American citizens. The SSA employee involved in this scheme lost his job, was sentenced to 71
     months in prison, and was ordered to forfeit $1 million and his residence in Lake Dallas, Texas;
     Three co-defendants were also sentenced to aE much as 63 months in prison, and another was
     given probation anq. home confinement.

    As part of Homeland Security's Operation Swipe Out, our investigators participated in a large­
    scale anti-terrorism crime initiative which foclsed on foreign nationals involved in a criminal
    enterprise involving credit card fraud, Social Security fraud, immigratlOn fraud, bank fraud; and
I
\   mortgage fraud. Our investigators determined that the co-conspirators defrauded credit card
    companies of approximately $5 million and sent some ofthe proceeds to banks in Pakistan and
    Canada. 0[30 defendants, 7 were charged wi:h SSN misuse. The 17 convicted subjects were
    given sentences ranging from 57 months of incarceration to 2 years' probation, and ordered to
    pay restitution of over $1.1 million.

    Last October, we shared with SSA our concern that one of the security features imprinted on
    original Social Security cards was causing confusion in the employer community and may not be
    fully understood by SSA employees tasked with assisting these employers. A large employer in
    question was particuIarlyreluctant to hire affected empioyees until the matter was resolved and
    the Social Security cards in question could be verified as authentic. The Agency agreed with our
    assessment and took steps to modify the secu:ity feature, educate staff on the security features,
    and assist tJte employer who experienced trOUble with this feature.

    Our FY 2005 budget submission will allow us to continue the, efforts of our SSN Integrity
    Protection Team. This integrated team provides a targeted approach, allowing SSA and 01G to
    more effectively address this issue and provide assistance to SSA, Congress, the public, and
    other law enforcement.

    Specifically, the SSN Integrity Protection TeBm focuses its efforts on identifying patterns and
    trends to better target audit work, refer cases for investigation, and ensure efficient and effec!ive
    liaison with other relevant public and private sector entities. Furthennore, the Team coordinates
    a number of initiatives und¢r this effort, inch:.ding (1) cross verification of data, (2) homeland
    security investigations, (3)'the integrity ofthe enumer£l.tion process, (4) unauthorized work in the
U.S. economy, and (5) supporting SSA with rei~ulatory and legislative actions. The Team also 

acts as liais.on on projects and initiatives with SSN Misuse task forces, credit bureaus, motor 

vehicle administrations, the Federal Trade Commission, credit card companies, and other 

entities. 

                                  .
 Mr. Chairman, there isa great deal of illicit mcney to be made in SSN misuse, and the costs to
 all of us are very high.We will continue worklng with Congress to address the threats to S SN
 integrity and to advocate measures to reduce those threats, participating on anti-terroriSIrl, task
 forces and conducting audits in areas where SSA can strengthen the integrity of the SSN:

                                        Improper Payments

 Improper payments are payments that should TIot have been made, or which were made for
 incorrect amounts. They include inadvertent errors, payments for unsupported or inadequately
 supported claims, payments for services not re:ldered, or payments to ineligible beneficiaries. In
 FY 2003, SSA issued over $500 billion in payments to about 53 million individuals. Even the
 slightest error in the overall process can result in millions of dollars in overpayments or
 underpayments. Working with SSA, we have made great strides in combating this problem, but
 much more needs to be done. . We will continue
                                            ,        to assist SSA in preventing, identifying and
 recovering improper payments in SSA's programs.

 To assist in combating this problem, Co~gress enacted the Improper p'ayments Information Act
 in November 2002, and the Otfice of Management and Budget (OlvIB) issuc:u guiJ.a.uce ill May
 2003 on implementing this new law. Under this law, agencies that administer programs with a
 significant risk of improper payments estimate their annual. amount of improper payments, and
 repOli this information in their Performance and Accountability Reports.

  We have a number of reviews underway concerning improper payments, such as (1) a review to
  quantify the amount of fraudulent undetected t)verpayments in SSA's disability programs, (2) a
  review to determine whether SSA evaluated earnings for disabled individuals and (3) another
  review to assess overpayment waivers will be initiated in FY 2004 and continue beyond to
. address the issue of improper payments.

   Current law denies SSI benefits to fugitive febns or those violating probation or parole under
  Federal or State law. TheS9Ciai Security Pro·:ection Act of 2003 amends Title II ofthe Social
'·'Security Act to deny QASDI benefits to such 'b{;!neficiaries. We have always believed that
   crinlinals fleeing from justice shbuld not have the support ofFederal benefits. Therefore: we
  welcome the newly expanded fugitive felon p:~ovisions. Last year, we completed an audit
   demonstratjng that there would be significant potential savings if the fugitive prohibition were
   extended to the Title II program. As important as these savings are, monies were not provided to
   fund the mandated expansion of our highly successful Fugitive Felon Program which assists law
. enforcement with locating criminals, thus making our neighborhoods safer.
                 -                                       ~
                              Management of the Disability Process

We continue to report the Agency's management of the disability process as a major
management challenge for SSA. This inc1ude~; the Disability Insurance (DI) and ssr programs,
which provide payments to in,dividuals based em disability. Our concerns were echoed by the
General Accounting Office, when it added Fee.eral disability programs, including SSA's to its
2003 high risk list.

Over the last several years, SSA has tested several improvements for its disability claims process
as a result of concerns about the timeliness and quality of service. To date, however" these
initiatives have not resulted in significant improvements.

  Recently, the Commissioner announced her loo.g-term strategy for improving the Agency's
  disability process.' Through a combination of process modifications and. automation, SSA
  expects to shorten disability processing times. We will continue to evaluate these initiatives to
. determine their effectiveness and report to you on the Agency's progress once data is available.

One area that has shown great success is our collaborative effort with SSA in the Cooperative
Disability Investigations (CDI) Prograp1. The goal of this program is to obtain evidence that can
resolve questions of fraud in SSA's disability programs. CDr units are composed of Office of
Investigations (OI) special agents and persoD!lel from SSA's Office of Operations, State
Disability Determination Services and State o:~ local law enforcement. They use their combined
skills and specialized knowledge to combat fraud, waste, and abuse in the disability program.
Currently; 18 CDr units operate in 17 States.

A recent case illustrates the value of the CDr Program. Our Atlanta CDr Unit investigated a man
who concealed his work activities from SSA ~;o he and his wife could continue receiving .
disability benefits. Our investigators determined that th~ man had been employed full-time since
1994 as a maintenance supervisor at a nUc1earpower plant in South Carolina. None ofhis work
activity was reported to SSA. The loss to the disability program as a result ofhis concealed
work activity was $104,533 for the beneficiary and $32,564 for his wife. Based on our
investigation, the beneficiary and his wife we:~e each sentenced to 2i months in prison and
ordered, to pay full restitution to SSA.

The new Social Security Protection Act provisions will assist SSA in fighting fraud in the
disability area. Sp~cifically, if a claimant is :t::mnd guilty of committing fraU:a 'duringa trial work
period, the claimant will be ineligible for benefits. We will work with the SSA to monitor the
implementation of these new provisions.                                  -.,
                                          Service Delivery

  Service delivery to the Arrierican people poses a significant challenge that SSA is compelled to
  address. The Agency's goal of "service" enccmpasses traditional and electronic services' to      .
: applicants for benefits, beneficiaries, and the general pUblic.

We consider electronic service delivery and be integrity of the representative payee process to
be the two most significant concerns related to SSA's "Service Delivery. The President's
Management Agenda calls for improving service delivery through the use ofE-government in .
creating more cost effective and efficient ways to provide services to citizens. Within the next
 five years, SSA expects to provide E-govemrnent services to citizens, businesses and other
 government agencies that will give them the abllity to easily and securely transact most of their
 busine§s with SSA electronically. With this increaSed reliance on E-government to deliver
 service, the Agency will need to ensure ,that its information systems and networks are accurate,
 reliable and safeguarded from those who intenc. to cbmpromise or take advantage of SSA' s data.
 We will continue to review the Agency's pro gres;' and mand ready to assist its efforts to improve
 service delivery.

 Another area of concern is'the Representative l'ayee Pro grain. When SSA determines a
 beneficiaiy cannot manage his/her benefits, SSA selects a representative payee, who must use
 the payments' for the beneficiary's needs. There are about 5.3 million representative payees who
 manage the payments for 6.7 millioribeneficiruies. In managing the repr~sentative payee
 process, SSA must provide appropriate safeguCirds to ensure they meet their responsibilities to
 the beneficiaries they serve. To assist SSA in lhis effort, we completed' a number of initiatives 'to
 determine whether representative payees had effective safeguards over the receipt and
 disbursement of Social SecUrity benefits, and t,) ensure that Social Security benefits are used and
 accounted for in accordance with SSA polices and procedures.

 For exa.ri:lple, our investigators in Seattle identified a woman operating an institutional
 representative payee service since 1996, representing approximately 200 clients. We detennined
 that while operating as a not-for-profit service, the woman embezzled over $107,000 in funds. In
 - .. - -----:-.-- ______ 1_
 UlJ.C I:;b1C:;b.l.UU-i'l vAaJ..UPlv"
                                        ~ 1_. __ ~1~ __ 1_.""~o-h .... ~" ....';".r;,"
                                        C1.l.J..V.LL.l\"..lj.V':hJ; UlwIJ..Lv.u.V.LL.t...I..,;'   1'T~
                                                                                                         "'M",n.,.,.,.    "f"'kic <l-n-nrnvi"':::ltp,h, '1:1'1000
                                                                                                            w-n ....... _ ..., ........... - - r r ... -""----~~-'-..I :. . . __ ; _ _ . 

                                                                                                         """"""' ...



  retroactive benefit check, which the representative payee used for herself. She was incarcerated
- and ordered to pay $107,292 in restitution directly to 88 victims.' SSA contributed greatly in the
  successful outcome of this investigation.

 Additionally, since FY 2001, our audits have iientified deficiencies with the financial
 management and accounting for benefit receipts and disbursements; vulnerabilities in the
 safeguarding of beneficiary payments; po.or monitoring and reporting to SSA of changes in
 beneficil.'UY circumstances; as well as inappropriate handling of beneficiary-conserved funds and
 the charging of improper fees. As a result offiese audits, we have made 37 recommendations
 for corrective actions aimed at strengthening the control and accounting of funds by
 representative payees .

. The Sociai Security Protection Act of 2003 will significantly strengthen the Representative
  Payee Program and our ability to deal with those whose goal is to take advantage of the clients
  they are supposed to help. For example, the n:!w provisions make important contributions to
  reducing fraud loss by providing for the impo~:ition of civil monetary penalties against ­
  representative payees who misuse benefits paid on behalf of their clients. The Act also bars
  fugitive felons or those violating probation or parole Under Federal or State law from serving as
 'representative payees. It prohibits a representitive payee from collecting a fee for services if it is
  det~ined that the representative payee has misused any amount of a benefit for such month~ ­
  and holds non-government representative payees liable for misuse of :fu.tlds.         '

 In just one audit we completed last year, we e:;timatedthat fugitive felons would manage
 approximately $19 :nillion in Social Security ::unds annually if they were not replaced as
 representative payees. To ensure these new Fovisions are implemented, we will need to expand
     our investigative'and legal workload. Again, hJwever, we will need your support, because these
     signifi~ant potential savings do not translate inl0 enforcement dollars.

                                               Conclusion
                                                     •
     For our part, we will continue to function as a key management tool and law enforcement arm
     for SSA We will use the precious resourc~s aJocated t6 us to keep working with the Agency to
     improve its operations and efficiency. We exilit to prevent fraud, waste, and abUse in SSA' s
     programs and to pursu~ those who try to take 'advantage of SSA's prograr;ns and operations.

     In FY 2003, our investigators reported over $356 million in investigative accomplishments
     through SSArecovepes, restitution, fines, settlements, and judgments and projected savings. As
     part of our civil monetary penalty program, our attorneys reported nearly $1.25 million in
     penalties and assessments. And finally, our auditors issued 97 reports with recommendations
     identifying over $1 billion in Federal funds tht,t could be put to better use and $57 million in
     questioned costs. We return Up to $20 for eve:? dollar invested iIl our operations.

     I look forward to working with Congress and 1he Commissioner to help SSA meet these and
     other challenges. Thank you, and I would be pleased to IDlswer any of your questions.




(

